<html>
<title> - NOMINATION OF DAVID S. FERRIERO</title>
<body><pre>[Senate Hearing 111-555]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-555
 
                    NOMINATION OF DAVID S. FERRIERO

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

 NOMINATION OF DAVID S. FERRIERO TO BE ARCHIVIST OF THE UNITED STATES, 
              NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

                            OCTOBER 1, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
53-846                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
              Adam R. Sedgewick, Professional Staff Member
  Eric S. Hopkins, Professional Staff Member, Subcommittee on Federal 
  Financial Management, Government Information, Federal Services, and 
                         International Security
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                    John K. Grant, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Carper...............................................     1
Prepared statement:
    Senator Carper...............................................    15

                               WITNESSES
                       Thursday, October 1, 2009

Hon. Kay R. Hagan, a U.S. Senator from the State of North 
  Carolina.......................................................     1
David S. Ferriero to be Archivist of the United States, National 
  Archives and Records Administration............................     6

                     Alphabetical List of Witnesses

Hagan, Hon. Kay R.:
    Testimony....................................................     1
Ferriero, David S.:
    Testimony....................................................     6
    Prepared statement...........................................    17
    Biographical and financial information.......................    20
    Letters from the Office of Government Ethics.................    28
    Responses to pre-hearing questions...........................    30
    Responses to post-hearing questions..........................    61
    Letter of support............................................    70


                  U.S. GOVERNMENT PRINTING OFFICE
00-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    NOMINATION OF DAVID S. FERRIERO

                              ----------                              


                       THURSDAY, OCTOBER 1, 2009

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:05 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Senator Hagan, are you from North Carolina? 
Is that true?
    Senator Hagan. You had better believe it.
    Senator Carper. Do you know this fellow sitting to your 
left?
    Senator Hagan. We are so honored that he is here.
    Senator Carper. Well, we are honored that you are here. I 
know you have a lot on your plate today, but we are honored 
that you would be willing to come by and say a word or two on 
his behalf.
    We are delighted you could come and make some remarks to 
introduce him. Speak for as long as you wish.

 TESTIMONY OF HON. KAY R. HAGAN, A U.S. SENATOR FROM THE STATE 
                       OF NORTH CAROLINA

    Senator Hagan. Mr. Chairman, I am really delighted to be 
here. Thanks for the opportunity to speak today.
    Seventy-five years ago, President Franklin Roosevelt 
appointed R.D.W. Connor as our first Archivist of the United 
States, and I mention this because Archivist Connor was born in 
Wilson, North Carolina, and prior to becoming the Archivist, he 
was a distinguished member of the faculty at the University of 
North Carolina (UNC).
    Senator Carper. I have heard of that school.
    Senator Hagan. It is a good one. [Laughter.]
    Today, I am honored to see this Committee hold a 
confirmation hearing for President Obama's nominee to be the 
tenth Archivist of the United States because, like Mr. Connor, 
David Ferriero also has ties to our great State and one of our 
fine universities, Duke University. And it just so happens my 
son graduated from Duke several years ago.
    Like the first Archivist, Mr. Ferriero is arriving at a 
time of unchartered challenges for the National Archives. The 
first Archivist was confronted with the enormous task of 
building the Archives and figuring out how to process and care 
for 150 years' worth of Federal records scattered across the 
government. Today, Mr. Ferriero is coming to the position when 
the challenges of preserving and providing access to government 
records are about bits and bytes rather than paper and 
parchment.
    One of my goals, as a Senator, is for government to be open 
and accessible to the constituents of my State and the Nation. 
The National Archives strives to increase the accessibility of 
government, incorporating technology into its mission in order 
to benefit our democracy and into the future.
    As a result of his time as the University Librarian at 
Duke, we in North Carolina know that he embraces technology and 
he sees the potential it has to provide affordable and broad 
access to history, science, and culture. Among other things, we 
saw his leadership lead to the North Carolina Exploring 
Cultural Heritage Online, a statewide initiative to establish 
one doorway to all the libraries, museums, archives, and 
historical collections in the State, almost 1,000 sites in an 
online environment.
    Duke University was grateful for the leadership shown by 
Mr. Ferriero. Then-University President Nan Keohane, a good 
friend of mine, said he was ``a renaissance man who combines a 
commitment to the life of the mind with a practical and 
collaborative approach.'' Duke noted his ability to accomplish 
great things with ``charm, wit, and great sensitivity to the 
multicultural nature of university.'' And when Mr. Ferriero 
took the position at the New York Public Library, Duke 
University said he would be remembered at Duke as a visionary 
and an effective leader, a man passionate both about books 
and--guess what--basketball. [Laughter.]
    I am thrilled that President Obama nominated someone who 
was passionate about basketball---- [Laughter.]
    Even though it was one of our other great teams in North 
Carolina, from UNC-Chapel Hill, that won the NCAA Championship 
this past year.
    But more importantly, I am confident that Mr. Ferriero's 
experience at Duke and the rest of his distinguished career 
will serve the National Archives and our Nation very well.
    I would like to take a moment of congratulations, and I am 
thrilled with this nomination, and I am thrilled that you have 
accepted this great challenge.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Hagan, thank you very much. I know 
you are one busy Senator. You are involved in all kinds of 
things, and we are delighted that you could take the time to 
come by and speak on his behalf. Thank you so much.
    Senator Hagan. Thank you.
    Senator Carper. Good to see you. See you later today.
    As Senator Hagan leaves, I might mention, we have just come 
from votes on the Senate floor on the defense appropriations 
bill, which is a big deal. We had two votes, one offered by the 
Chairman of our Permanent Subommittee on Investigations, 
Senator Levin, which was to be followed in sequence by another 
vote offered by the Ranking Republican on our Subcommittee on 
Federal Financial Management, Government Information, Federal 
Services, and International Security, Senator McCain. As it 
turned out, the first vote was the 12,000th vote in the Senate 
career of Senator Orrin Hatch from Utah.
    On an occasion like that, it is not uncommon for a 
Democratic leader and a Republican leader to stand up and speak 
about the colleague who reached the milestone. That is a big 
milestone around here. And as he spoke, right across the aisle 
from him, about five or six feet away was Robert Byrd, who has 
been hospitalized and is now back at work, and it is very nice 
to have him back.
    But the bad thing about the tribute to Senator Hatch was 
that it did delay the beginning of this hearing, so we 
apologize for that, but we are glad you all stuck around, 
especially our nominee and his family and his extended family.
    I just want to add to what Senator Hagan said. She was 
quick for some reason to talk about your North Carolina 
affiliations, but she maybe did not talk quite as much about 
the time you spent up in Cambridge, Massachusetts. Our oldest 
son is a fourth-year mechanical engineering student at MIT, 
where I know our nominee spent 31 years of his life and worked 
his way up, becoming Acting Co-Director of the MIT Libraries.
    Before that, an even more important contribution and role 
that he played was in the U.S. Navy, a branch of service where 
I spent some 23 years, plus another 4 more years as a Navy ROTC 
Midshipman. So I felt a kinship almost right away when I met 
our nominee.
    After adding that to the list of accomplishments, we are 
delighted that you have been nominated and delighted that you 
are here with your family and friends.
    Now, when I look at your name--I always talk to my staff 
about this--I say, are you sure he pronounces his name ``fare-
e-oh,'' because when I look at it, it should be ``fare-e-er-
oh.'' That is the way I would pronounce it. Why is it 
pronounced ``fare-e-oh''?
    Mr. Ferriero. I am sure that it is the result of a 
mispronunciation many years ago. Two brothers came to the 
States. One went to Medford, Massachusetts, where Mike 
Bloomberg's family went, and the other went to Beverly, 
Massachusetts. The people in Medford are ``fare-e-er-oh.'' The 
people in Beverly are ``fare-e-oh.'' [Laughter.]
    And that is how we tell each other apart. [Laughter.]
    Senator Carper. You mentioned Mike Bloomberg, the Mayor of 
New York City?
    Mr. Ferriero. From Medford, Massachusetts.
    Senator Carper. Oh, really? How about that. I was with him 
a couple of years ago, and he was here receiving an award on 
behalf of the schools in New York City. They were being 
recognized as the best urban school district in the country, 
among four or five others. When he received the award, he was 
talking about the young people in the schools and how bright 
they are, how much they have learned, and how fast they are 
coming along. He was sort of inferring that they were much 
smarter than his generation. And he talked about his own 
achievements in college, and he said, ``My role in college was 
to make it possible for others to be in the top half of the 
class.'' [Laughter.]
    I mentioned that to Senator McCain just before he voted on 
his amendment. Senator McCain said, ``I am going to steal that 
line.'' And I said, why shouldn't you? I already have. 
[Laughter.]
    Well, today, we are going to be considering the nomination 
of David Ferriero to be the Archivist of the United States, the 
National Archives and Records Administration.
    I am not going to repeat the things that Senator Hagan has 
said, in the interest of time. As we meet here, there is also a 
markup going on at the Finance Committee. Let me say for our 
young people who are sitting out there and may not realize that 
Senators used to use quill pens, and whenever we were voting on 
legislation, a piece of legislation that might be introduced, 
these old fellows would sit around with their quill pens and 
they would mark up the legislation. We now have computers to 
help us with these things. But the term ``markup'' is still 
used to describe what happens in the Committee before a bill 
comes to the Floor of the House or Senate.
    But there is a markup going on just down the hall at the 
Finance Committee, on which I serve, and we are marking up 
health care reform, and as soon as we finish here, I am going 
to slip back down there and get to work with my other 
compadres.
    When you look at the seats up here, we probably have 17 
people who serve on this Committee and the seats are empty. And 
you might say, well, why is that? If your nomination was in 
trouble, they would be full. [Laughter.]
    This is not bad news. This is actually positive. You should 
welcome this, I think.
    Let me just say, I am pleased that the President has sent 
us such a qualified candidate for this position. As I am sure 
Mr. Ferriero will point out in his opening statement, he has 
experience working with the National Archives in his previous 
positions and will hopefully bring in some fresh new ideas, if 
confirmed as its leader.
    In his previous role as head of the New York Public 
Library, Mr. Ferriero worked to increase efficiency and to 
streamline its operations. Mr. Ferriero has also harnessed the 
power of the Internet to make it easier for citizens to access 
the holdings of the New York Public Library from the comfort of 
their homes. He understands very well the tough work that lies 
ahead, should he be confirmed.
    When Mr. Ferriero and I sat down together recently, he made 
clear that there are issues that the world is looking to the 
National Archives to help solve and that he would like to take 
a leadership role in solving them. Good for you.
    First, there is the issue of electronic records management. 
Every year, more and more records are being produced entirely 
in electronic form. For example, I am sure a good number of 
people in this room sent an e-mail today--I know I have--that 
contained an attachment with a document, photo, or a video. 
Now, not all those records will be important for our Nation's 
history, but some may be. In the past few decades, important 
electronic records, such as e-mail, have been printed on paper 
and placed in a filing cabinet, but we cannot go on doing that 
forever.
    To address this challenge, the National Archives is 
developing an information technology (IT) system that can store 
the government's electronic records forever, and that is a long 
time. While this technology sounds promising, there are many 
experts who question whether or not it will be effective. For 
example, will we know in the year 2109 that an electronic 
record created in 1999 is the original? I do not have an answer 
to that question, and I doubt that many people here do, but it 
is one that Mr. Ferriero will be responsible for finding out if 
he is entrusted with this position for which he has been 
nominated.
    The second area I want to touch on is the cost of running 
the Presidential Libraries.
    The Presidential Libraries Act of 1955 requires the 
National Archives to maintain libraries from President Hoover 
onward. Pretty soon, we will see President George W. Bush's 
library added to that list. These libraries are typically 
privately constructed and then deeded and maintained by our 
Federal Government, as we know.
    However, some library facilities have unexpectedly required 
millions of dollars in additional funding from Congress in 
order to prevent the destruction of priceless artifacts from 
leaking roofs, poor infrastructure, and improper temperature 
controls. Further, I learned last year at a hearing that some 
records in Presidential Libraries are often unavailable to the 
public for extended periods of time.
    That is why I asked my colleagues on this Committee to join 
me in passing a bill during the last Congress that asked the 
National Archives to take a hard look at the Presidential 
Library system. The bill asked the Archives to report back to 
Congress on ways to better preserve presidential materials, to 
reduce the financial burden on the Federal Government, and to 
reduce the delay in public access to the records that are held 
by those libraries. In fact, we recently received that report, 
and I look forward to partnering with Mr. Ferriero to take 
steps to save costs and better protect these precious national 
treasures.
    And finally, I would like to touch on the leadership role 
of the National Archives. Every year, millions of paper-based 
and electronic records are created by our government. Some of 
these records are at risk of being lost forever because the 
recordkeeping systems used by our agencies are flawed. We saw 
this unfortunate situation unfold when 3 months' worth of Bush 
White House e-mails leading up to the start of the Iraq War 
went AWOL. I am not sure if all those e-mails were recovered, 
but that is a situation that simply never should have occurred 
in the first place.
    In addition, we have needlessly spent millions of taxpayer 
dollars declassifying records that never should have been 
classified in the beginning. And when records are labeled 
``classified,'' it takes decades longer than it should to 
finally declassify them. For example, my staff tells me that 
the National Archives has records that are unavailable to the 
public that date back to the Spanish-American War due to their 
classified status. That is unacceptable.
    One major challenge for Mr. Ferriero, if he is confirmed, 
will be to make sure that the National Archives assumes the 
leadership role Congress intended back in 1934 and more 
aggressively works with agencies to appropriately manage their 
records.
    My thanks to you, Mr. Ferriero, for your willingness to 
tackle this difficult, challenging role. And I want to say to 
your wife, who is sitting there behind you, over your right 
shoulder, and to others in the audience who like you, who care 
for you, but especially to your wife and family, a real special 
thanks to you for sharing with our Nation a very good human 
being.
    Others may join us during the course of this hearing, and 
if they do, I will be pleased to recognize them to ask 
questions or, probably in more cases, to submit questions for 
the record.
    I understand that you have filed responses to a 
biographical and financial questionnaire. You have also 
answered prehearing questions submitted by the Committee. In 
addition, the financial statements have been reviewed by the 
Office of Government Ethics. Without objection, that 
information will be made part of this hearing record. Financial 
data, however, will be published on the front page of the 
Washington Post for all to see. [Laughter.]
    No, I am kidding. Financial data will remain on file and 
available for public inspection in the Committee offices.
    Committee rules require that all witnesses at nomination 
hearings give their testimony under oath, and I am going to 
ask, Mr. Ferriero, would you please stand and raise your right 
hand at this time, and I will do the same.
    Mr. Ferriero, do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Ferriero. I do.
    Senator Carper. Very well. Thank you.
    As you begin your testimony today, feel free to introduce 
anyone in the audience that you would like to introduce, and 
then proceed with your opening statement.
    Try to stay close to 10 minutes, and then I will ask three 
standard questions once you finish and then we will get into 
the real questions.
    Mr. Ferriero, you are recognized. Please proceed. And 
again, your entire statement will be made part of the record. 
Welcome.

   TESTIMONY OF DAVID S. FERRIERO,\1\ TO BE ARCHIVIST OF THE 
  UNITED STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION

    Mr. Ferriero. Chairman Carper, Committee staff, family, 
friends, and members of the gallery, I am triply blessed to be 
claimed by three home States, Massachusetts, North Carolina, 
and New York, and I am especially proud to have Senator Hagan 
say those kind words in my name.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ferriero appears in the Appendix 
on page 17.
---------------------------------------------------------------------------
    At my current institution, the New York Public Library, 
Senator Schumer from New York has been incredibly helpful in 
helping us prepare for our 100th anniversary of the opening of 
the flagship library on Fifth Avenue, and I want to acknowledge 
his support of the New York Public Library.
    I appear before you today, the proud grandson of Italian 
immigrants and the great-grandson of Irish immigrants. It is a 
humbling experience to be called to service by the President of 
the United States, an experience which allows, indeed, forces 
one to reflect upon all the individuals and opportunities which 
have gotten me to this moment.
    The product of an outstanding public education system in 
Beverly, Massachusetts, I attended Northeastern University, the 
Nation's leading cooperative education program. My father 
worked at least two jobs, often three, throughout my childhood. 
My mother took a job cleaning floors at Beverly Hospital to 
ensure that I could go to college. The cooperative education 
program gave me an education and my first experience with 
research libraries, which set the stage for a career spanning 
more than 40 years.
    A 4-year enlistment in the U.S. Navy, including a year in 
Vietnam, afforded me the opportunity to be trained as a 
hospital corpsman with a specialty in neuropsychiatry. The Navy 
provided me with a set of people skills that I use every day of 
my life.
    My work experience in three of the Nation's leading 
institutions has provided me with a set of professional 
credentials of particular value to the National Archives and 
Records Administration. At MIT, where I started shelving books 
in 1965 and left having served as Acting Co-Director of 
Libraries; at Duke, where I was University Librarian; and at 
the New York Public Library, where I serve as the Andrew W. 
Mellon Director of Libraries, I have had administrative 
responsibilities for institutional archives and records 
management programs. In all three settings, I have had 
preservation and conservation experience, including creating 
the preservation program at Duke. Most importantly, I have 
experienced and managed aspects of technological transformation 
over the years in all three environments.
    The mission of the Archives is to safeguard and preserve 
the records of our government, ensuring that people can 
discover, use, and learn from this documentary heritage. Carved 
into the north facade of the Archives building a few blocks 
from us, the mission is expressed more simply: ``This building 
holds in trust the records of our national life and symbolizes 
our faith in the permanency of our national institutions.'' 
This is an awesome responsibility and, at the same time, given 
the impact of technology on these records, an exciting 
challenge for one who spent his career managing change.
    Robert Digges Wimberly Connor, as Senator Hagan mentioned, 
our Nation's first Archivist, in 1934 surveyed 225 buildings 
whose records would be housed in the new Archives building, 
some 1.4 million cubic feet of records. To quote Mr. Connor, 
``45 percent of the total are infested with silverfish, 
cockroaches, and other insects, rats, mice, and other vermin, 
and exposed to such hazards as dirt, rain, sunlight, theft, and 
fire. More than 46 percent of the total were in depositories 
that were dark, dirty, badly ventilated, crowded, and without 
facilities for work.''
    ``Typical was the case of valuable records relating to 
Indian affairs, which were found on dust-covered shelves 
mingled higgledy-piggledy with empty whiskey bottles, pieces of 
soap, rags, and other trash. In another depository crowded with 
archives of the government, the most prominent object to one 
entering the room was the skull of a dead cat protruding from 
under a pile of valuable records.''
    Senator Carper. You are not making this stuff up, are you? 
[Laughter.]
    Mr. Ferriero. It is from the UNC archives.
    Senator Carper. It must be true. [Laughter.]
    Mr. Ferriero. ``If a cat with nine lives to risk in the 
cause of history could not survive the conditions of research 
in the depositories of our National Archives, surely the poor 
historian with only one life to give to his country may be 
excused if he declines to take the risk.''
    We have come a long way since 1934, when Mr. Connor's 
survey was completed, but I would suggest that we are at a 
similar defining moment with regard to our existing electronic 
records, social media communications, and emerging technologies 
being used throughout government offices.
    The vermin and insects have been replaced by a variety of 
software packages, platforms, and old technologies. The lack of 
standards even in the same agencies add to the complexity of 
the problem.
    The ability of the Archives to fulfill its mission in the 
electronic environment is just one of the many challenges on 
the agenda for the new Archivist. Of equal concern are issues 
of collection security, the future of the Presidential Library 
system, backlogs in processing, staff job satisfaction, 
stakeholder relationships, preservation and storage needs, to 
name but a few.
    I promise you all that, if confirmed, I will work hard to 
ensure that I carry out my responsibilities in a professional, 
nonpartisan, and collegial manner. I would ask at the same time 
for your support as I work through this ambitious agenda.
    It has been 40 years since my last commitment to serve my 
country. A more mature and seasoned servant asks for your 
confirmation.
    Senator Carper. That is a great statement.
    As I said earlier, Committee rules require me to ask the 
first three questions in this order, and then the remaining 
questions will follow.
    Let me start by asking those standard questions, and the 
first of those, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Ferriero. No.
    Senator Carper. Second question, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Ferriero. No.
    Senator Carper. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Mr. Ferriero. Yes.
    Senator Carper. I recall an earlier confirmation hearing 
when I came in as I did here and said hello to the nominee, met 
the nominee's family, and one of his lifelong friends, I think 
a roommate in college, was sitting right behind him. And I was 
kidding him about knowing some stories about the nominee that 
he might want to share as a character witness, and when I got 
to the second question, I said, do you know of anything 
personal or otherwise that would in any way prevent you from 
fully and honorably discharging the responsibility of the 
office to which you have been nominated; I looked at the 
nominee, and right behind him was his old college roommate, and 
I was sure that the old college roommate was rolling his eyes. 
[Laughter.]
    Let me start off with this question, if I can. Some of our 
questions are somewhat esoteric and not especially timely. This 
one, I think, is a bit more timely, and it was reported as 
recently as this morning in the news. Wired Magazine is 
reporting that the Archives Inspector General is looking into 
whether the Archives potentially lost a massive amount of 
personally identifiable information when a defective hard drive 
was returned to the vendor. I am told that health information 
for up to 70 million veterans--that could include us--may have 
been compromised.
    I do not expect you to know the specific facts of the case, 
but this incident disturbs me, and I am sure it disturbs a lot 
of us. It seems like this is just really one incident in a 
series of mishaps at the Archives in recent years. For example, 
it was only a couple of months ago when we learned that the 
hard drive containing information, I think, on Secret Service 
activities of the White House was stolen from a secure Archives 
facility.
    With that as background, let me just ask, if confirmed, 
what will be your response to incidents of this nature and 
others like it? What will you do to prevent situations like 
this from happening again?
    Mr. Ferriero. Let me start with the Wired report, since I 
did read it and have some background information on it. The 
hard drive crashed in November 2008 and was sent out for repair 
using a GSA-approved vendor and following standard procedures, 
which did not at that point, in November 2008, require 
scrubbing the data before the hard drive went out. Since then, 
the Archives has changed their practice----
    Senator Carper. Do you know when?
    Mr. Ferriero. I do not know. I think it was as soon as this 
incident was reported.
    Senator Carper. OK.
    Mr. Ferriero. So that is what I know about that particular 
incident.
    The other incident, with the Clinton hard drive, is more 
complicated in that it was taken from an internal processing 
office where no outside person, no user would have access. So 
this is one of the problems that all of us in research 
libraries deal with every day, this tension balance between 
providing access and protecting the collections, and it is 
particularly a problem--the FBI reports in a recent study that 
75 percent of these problems are internal. It is staff, it is 
not outside users. So those are even more disturbing and more 
difficult to deal with. And it is clear, based on the briefings 
that I have had about the Clinton hard drive issue, that looks 
like it was a staff position was involved in this.
    I would guess, just based on what I know about the 
situation, that the individual who took it was not looking for 
the content, but it was the device. It was on a MyBook device. 
And I would guess, having worked with a lot of students in my 
40 years, that once he discovered what it was, he was petrified 
and didn't know what to do. That is not an excuse for it, but 
that is what I would suspect happened.
    This has resulted in the creation of a task force within 
the Archives to reassess the security procedures. I would 
expect that to be an ongoing process, that security procedures 
need to be reviewed constantly. And it is also an opportunity 
for the Archives to work closely with the Inspector General 
around issues like that.
    Senator Carper. All right. Well, I expect if you are 
confirmed, we will want to follow up on this, and somewhere 
down the road, maybe the first part of next year, to revisit 
this issue with you, not in a hearing, but more informally, and 
find out what is going on and what has happened under your 
watch to prevent situations like this from happening again.
    The next issue I want to raise, I actually think I 
mentioned this in my statement, revolves, again, around 
electronic records. I think you and I discussed this briefly a 
couple of weeks ago when you were good enough to spend some 
time with my staff and with me, but this is an issue that I 
think is going to continue to perplex us for some time to come.
    For example, I have heard that there is more electronic 
information created in a year on the Internet than all the 
written information created in human history. That is a lot. 
And the Federal Government is using the Internet more and more, 
as you know, every year to interact with citizens--I do that as 
a Senator--whether it is with the upcoming census, tax filings, 
or even discussions on health care.
    Can you just take a few minutes with us this afternoon and 
lay out what you believe are maybe the top two or three 
challenges facing the National Archives with respect to 
electronic records and what you suspect needs to get done, 
starting on day one when you are confirmed?
    Mr. Ferriero. Well, as I said in my comparison to what Mr. 
Connor discovered and where we are now, one of the real issues 
that the Archives is facing in this Electronic Records Archives 
Project is the lack of standards across government agencies, 
and that makes ingestion of electronic records incredibly 
difficult. So we have multiple different kinds of homegrown 
packages, software that has been developed, off-the-shelf 
packages, varying platforms that are being used, and it just 
complicates the ease with which that information is captured.
    I have been thinking a lot about this, and I think there 
are a couple of sitting groups who need to be more involved in 
this process. The Chief Information Officer (CIO) group across 
the agencies, I think, has a role to play since they support 
the technology in the agencies, and I think thinking about a 
standardization process that makes it easier for the agencies 
to comply as well as easier for the Archives to capture this 
information is one way of doing that.
    Another part of the issue, I think, is the training and 
education and compliance across the agencies, and this is a 
role that the Archives has a responsibility to be assertive and 
aggressive in. My experience in my previous lives around 
records management is that the assignment is usually given to 
the most junior person in the department, and it is usually a 
high-turnover position, so you are constantly in the situation 
of retraining and reeducating the most junior member of an 
organization. I am not sure that is true in the agencies, but I 
would guess that there is a fairly high turnover in the person 
responsible for managing the records, so that is another thing 
that I would be paying attention to.
    Senator Carper. Good. I know you spent a fair amount of 
time in the last couple of decades managing libraries. As I 
mentioned in my opening statement, the National Archives 
manages not one, but 12 presidential libraries and will soon be 
adding another one. However, the previous Archivist, Dr. 
Weinstein--do you know him?
    Mr. Ferriero. I have met him. I don't know him.
    Senator Carper. He said in a hearing last year that the 
presidential libraries are consuming ever more of the time and 
resources of the National Archives and he was not sure if it 
was fiscally possible for the Archives to continue this trend. 
What do you see as some of the challenges in managing the 
Presidential Libraries and what might be some of your 
approaches to solving them?
    Mr. Ferriero. I have been bringing myself up to speed on 
the Presidential Library system. It is a wonderful example of 
private-public support of an institution, very similar to the 
New York Public Library in terms of the public philanthropy 
that goes into it as well as government funding.
    My concerns have to do with concerns that anyone managing a 
decentralized library system feels, and that is the more 
facilities you have, the more problems you have around security 
of collections and the facilities themselves. So we have in 
this situation a series of buildings that have been built over 
time, since the 1930s, which are in varying states of need, and 
I think the capital issues around them continue to grow, and I 
have read the report that was submitted on Monday outlining 
five different scenarios for the future, ranging from status 
quo with some minor adjustments all the way to some kind of 
centralization of the collections. This is something that we 
need to have more discussion about. But I am concerned about 
security of collections, and sustainability of the model, I 
think, is my biggest problem.
    Senator Carper. One way to save a lot of time and money, as 
we all know, is to catch problems before they spiral out of 
control, and that is true in a lot of ways. I also believe it 
is true with respect to records management. For example, our 
government does not let companies get away with losing company 
records, but it seems that a lot of agencies consider records 
management almost an afterthought. Instead of thinking of ways 
to prevent over-classification, agencies seem to classify first 
and ask questions later. It was that way when I was in the 
Navy, and I am sure it was for you, too. But that kind of 
thinking costs the taxpayers ultimately a lot of money. It does 
not allow citizens to hold our government as accountable as 
they otherwise might be able to.
    What do you believe is the role of the Archives and how the 
Archives might be helping to prevent problems like over-
classification? What do you believe should be done to reduce 
the immense backlog of information that is decades old and yet 
still classified, even as far back, as I said earlier, to the 
Spanish-American War?
    Mr. Ferriero. We are about to create the Declassification 
Center in the Archives. That has been approved, and I think we 
are waiting for an Executive Order to actually create the 
Declassification Center. So there is a plan to begin that 
process. That will take care of where we are now in terms of 
the mountain of material, but it seems to me that we need to 
address the problem from the start, at the point that records 
are created, and that the decision needs to be made to err on 
the side of openness as opposed to classification, and that is 
what I would be looking at.
    Senator Carper. As you know, the National Archives was 
established as an independent agency to manage the records of 
both the Executive and Legislative Branches. However, there 
have been a few instances over the past decade or so when the 
independence of the Archives has been questioned by outside 
groups. For example, in my opening statement, I mentioned an 
instance when the White House Office for Administration 
disabled a working records management system for several months 
without installing a new one. In this situation and others like 
it, the National Archives may have to take a leadership role 
and hold another agency or branch of the Federal Government 
accountable. What are your thoughts with respect to the 
independence of the Archives, and second, what would you do if 
you feel political pressure from one agency or even one branch 
or another?
    Mr. Ferriero. I think that the success of the Archives 
depends on that independence and that neutrality, and I am 
pleased that Congress also sees that in the establishment of 
recent offices, the Office of Government Information Services 
and the National Declassification Center that I mentioned 
earlier. Siting them in the Archives is a message relating to 
the perceived independence of those organizations, and I would 
fight very hard to make sure that their independence is carried 
out.
    It is not unsimilar to--certainly not on the same scale, 
but it reminds me very much of a university setting where you 
have competing departments and the library remaining as the 
neutral, independent body. So I do have some limited experience 
in that area.
    In terms of what I would do if I were faced with it, I 
would exercise my authority as the Archivist of the United 
States, and I would seek the support of your Committee and 
other committees that would help me exercise that authority.
    Senator Carper. We could be your back-up.
    Maybe two more questions and then we will have the audience 
vote as to whether or not we should go forward. [Laughter.]
    Mr. Ferriero. Is that the way it works?
    Senator Carper. In football, they do audibles with the 
quarterback at the line of scrimmage, so maybe we will do one 
of those.
    I am not sure how many people in the room know this, but 
this year marks the 75th anniversary of the National Archives, 
which some of the folks in the audience, I think, may actually 
serve in the National Archives today. If you do, would you 
raise your hand?
    [Show of hands.]
    Thank you for your service. It is great that you are here 
today. One or two, I think I have met before, so it is good to 
see you again. Whenever we have newly elected senators, elected 
in November of every even-numbered year, a couple of weeks 
after they are elected, we have something that Senators 
Alexander, Voinovich, and Pryor of Arkansas introduced about 5 
years ago, and that is orientation for new Senators and their 
spouses. One of the special things that we do during that 3-day 
period, which is a fairly intensive period of training and 
orientation, is on one of those nights the Archives is good 
enough to host a reception at the Archives and give a chance 
for our new Senators and spouses to actually visit the Archives 
and to not only better understand our history and the treasures 
you hold there, but also to develop a better sense of what the 
Archives does. Years later, Senators, as they become grizzled 
veterans, are fond of recalling that evening. So my hope is 
that we will be able to do that in the future.
    A few months ago, I spoke on the Senate floor to 
commemorate the anniversary and to thank all the hard-working 
men and women at the Archives. I am told that over 1 million 
people a year visit the main facility to take a glimpse at the 
Declaration of Independence, our Nation's Constitution, and 
other exhibits.
    Mr. Ferriero, if confirmed, one of your many 
responsibilities will be to reach out and to educate the 
citizenry on the history of our country and to attempt to 
ensure that information that they need is available to them. 
What opportunities are there that you might be exploiting to 
expand the National Archives outreach, and second, are there 
ways that you will leverage the Internet to make the Archive 
holdings more accessible to citizens here and around the world?
    Mr. Ferriero. One of the goals of the whole Electronic 
Records Archives Project is public access, and at the end of 
this project--actually, much sooner than that, next year--you 
will actually be able to, from wherever you are, access the 
records of the United States, 7 days a week, 24 hours a day.
    I think, in answer to your question about educational 
outreach, the Archives has a very good track record working 
with schools and working with teachers physically and getting 
those materials available to teachers on the Archives website. 
There is a lot of material there. But I think that is the 
future of the outreach to the K through 12 community, engaging 
the teachers to use Archives materials in the preparation of 
lesson plans, to share those lesson plans electronically so 
that people can use one another's lesson plans. We will always 
be in the business of welcoming the public and schoolchildren 
to the physical facility itself. Nothing takes the place of 
that.
    Senator Carper. I have about 300 more questions here. I am 
not going to read them all, but I am going to submit maybe a 
couple more questions for the record. My colleagues may have 
questions that they want to submit. We are going to leave the 
hearing record open until close of business tomorrow so that 
they might do that. When you receive those questions from me or 
from our colleagues, I would just ask you to respond to them 
promptly so we can move this nomination along.
    Is there anything else that you would like to say before we 
wrap it up?
    Mr. Ferriero. I would just like to compliment the staff of 
the Committee. I had an extraordinary meeting with them, and it 
reminded me of my interview at Duke University.
    They were bright, articulate, asked good questions, they 
are engaged, they knew a whole lot. I was very impressed.
    Senator Carper. Well, that is nice to hear. I feel very 
fortunate to have the folks around me, and I know I speak for 
my colleagues on the Subcommittee. We are very fortunate with 
the folks who help us and help us serve the country. And you 
are going to be fortunate, too, if confirmed, with the people 
that you will have around you. So we want to wish you well.
    Every now and then, I notice in the audience we have young 
people--and this young man and woman who are sitting here in 
the front row over your left shoulder, are they from 
Switzerland?
    Mr. Ferriero. They are from Switzerland.
    Senator Carper. You get a prize for coming the furthest to 
today's hearing. Sometimes we have children, usually younger 
than this young man and woman, who are here to support their 
mom or their dad, or their aunt or their uncle, and they are 
all over the place. You can tell, they want to be anywhere in 
the world but right here in this room. I just want to say that 
this young man and woman were models of decorum. If they were 
feigning interest, they did a good job. [Laughter.]
    But we are glad that the two of you are here. We are glad 
that you brought your parents all the way from Switzerland.
    And again to your wife, we welcome you and thank you for 
your willingness to share with us a good man.
    For all others who have joined us, thank you, and I wish 
you a good day.
    With that, this hearing is adjourned.
    [Whereupon, at 3:53 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 53846.001

[GRAPHIC] [TIFF OMITTED] 53846.002

[GRAPHIC] [TIFF OMITTED] 53846.003

[GRAPHIC] [TIFF OMITTED] 53846.004

[GRAPHIC] [TIFF OMITTED] 53846.005

[GRAPHIC] [TIFF OMITTED] 53846.006

[GRAPHIC] [TIFF OMITTED] 53846.007

[GRAPHIC] [TIFF OMITTED] 53846.008

[GRAPHIC] [TIFF OMITTED] 53846.009

[GRAPHIC] [TIFF OMITTED] 53846.010

[GRAPHIC] [TIFF OMITTED] 53846.011

[GRAPHIC] [TIFF OMITTED] 53846.012

[GRAPHIC] [TIFF OMITTED] 53846.013

[GRAPHIC] [TIFF OMITTED] 53846.014

[GRAPHIC] [TIFF OMITTED] 53846.015

[GRAPHIC] [TIFF OMITTED] 53846.016

[GRAPHIC] [TIFF OMITTED] 53846.017

[GRAPHIC] [TIFF OMITTED] 53846.018

[GRAPHIC] [TIFF OMITTED] 53846.019

[GRAPHIC] [TIFF OMITTED] 53846.020

[GRAPHIC] [TIFF OMITTED] 53846.021

[GRAPHIC] [TIFF OMITTED] 53846.022

[GRAPHIC] [TIFF OMITTED] 53846.023

[GRAPHIC] [TIFF OMITTED] 53846.024

[GRAPHIC] [TIFF OMITTED] 53846.025

[GRAPHIC] [TIFF OMITTED] 53846.026

[GRAPHIC] [TIFF OMITTED] 53846.027

[GRAPHIC] [TIFF OMITTED] 53846.028

[GRAPHIC] [TIFF OMITTED] 53846.029

[GRAPHIC] [TIFF OMITTED] 53846.030

[GRAPHIC] [TIFF OMITTED] 53846.031

[GRAPHIC] [TIFF OMITTED] 53846.032

[GRAPHIC] [TIFF OMITTED] 53846.033

[GRAPHIC] [TIFF OMITTED] 53846.034

[GRAPHIC] [TIFF OMITTED] 53846.035

[GRAPHIC] [TIFF OMITTED] 53846.036

[GRAPHIC] [TIFF OMITTED] 53846.037

[GRAPHIC] [TIFF OMITTED] 53846.038

[GRAPHIC] [TIFF OMITTED] 53846.039

[GRAPHIC] [TIFF OMITTED] 53846.040

[GRAPHIC] [TIFF OMITTED] 53846.041

[GRAPHIC] [TIFF OMITTED] 53846.042

[GRAPHIC] [TIFF OMITTED] 53846.043

[GRAPHIC] [TIFF OMITTED] 53846.044

[GRAPHIC] [TIFF OMITTED] 53846.045

[GRAPHIC] [TIFF OMITTED] 53846.046

[GRAPHIC] [TIFF OMITTED] 53846.047

[GRAPHIC] [TIFF OMITTED] 53846.048

[GRAPHIC] [TIFF OMITTED] 53846.049

[GRAPHIC] [TIFF OMITTED] 53846.050

[GRAPHIC] [TIFF OMITTED] 53846.051

[GRAPHIC] [TIFF OMITTED] 53846.052

[GRAPHIC] [TIFF OMITTED] 53846.053

[GRAPHIC] [TIFF OMITTED] 53846.054

[GRAPHIC] [TIFF OMITTED] 53846.055

[GRAPHIC] [TIFF OMITTED] 53846.056

[GRAPHIC] [TIFF OMITTED] 53846.057

                                 <all>

</pre></body></html>
